                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-17                                   Office of Inspections                                        July 2014




                                Review of
                      Gifts to Embassy Employees




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Findings                                                                  1
Context                                                                       2
Recommendations                                                               5
  Mission Gift Policies                                                       6
Appendix A: OIG Recommendations Related to Gifts                              9
Appendix B: Missions with Gift Guidance Posted on Their Internal Web Sites   11
Appendix C: Embassy Gift Policy Example                                      12
List of Recommendations                                                      15
List of Informal Recommendations                                             16
Abbreviations                                                                17




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Key Findings
   Ambassadors and other Department of State employees sometimes receive gifts from foreign
    governments and other sources while serving overseas. Some gifts are intended for the
    employees, others for the Department of State. Gifts from foreign governments worth more
    than $646,0001 became the property of the Department of State in 2012.2 The Department of
    State does not record the value of gifts from foreign governments or other sources that
    become the property of Department of State employees.

   Some OIG reviews over the past 5 years have demonstrated that missions lack adequate
    controls over gifts. The absence of controls, especially the lack of documentation and
    recordkeeping related to gifts to employees, hinders transparency and makes it difficult to
    determine whether employees inappropriately accepted gifts or whether the law was violated.
    Requiring that missions maintain registries of all gifts received will provide better controls
    over gifts and remind employees of the gift regulations.

   Although the Department of State’s annual ethics training and holiday cable cover gift
    acceptance laws and regulations and the Office of the Legal Adviser includes advice on gifts
    on its intranet ethics site, the Foreign Affairs Manual provisions implementing those laws are
    inadequate.



All findings and recommendations in this report are based on information gathered in previous
reviews, conditions observed during the on-site review, and the standards and policies then in
effect, as well as through reviews of documents and interviews and as examination of the laws
and regulations on gifts and the related Foreign Affairs Manual sections.

This review took place in Washington, DC, between October 17 and November 25, 2013.
Richard D. English (team leader) and Michael Bosserdet conducted the review.




1
  Gifts to Federal Employees from Foreign Government Sources Reported to Employing Agencies in Calendar Year
2012, 78 Fed. Reg. 54025-54035 (August 30, 2013).
2
  This does not include gifts to assist the Department of State in carrying out its operations as discussed in 2 Foreign
Affairs Manual 960.
                                              1
                                 SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Context
        Ambassadors, employees, and family members at U.S. embassies sometimes receive or
are offered gifts from foreign governments and private sources. In some cases, the gift is
intended for an embassy official; in others, it is intended for the Department of State
(Department), the U.S. Government, the Secretary of State, or the President. Consumable gifts
are common and might include dinners, tickets for performances or sporting events, service
upgrades, golf outings, invitational travel, free stays at hotels or private estates, and,
occasionally, free memberships to private golf courses. Extravagant gifts might include swords;
tea sets; pearls; jade; and art, such as decorative urns, rugs, busts, and carved Chinese screens.

        An employee who improperly accepts a gift may be committing a criminal offense. Title
18 of the U.S. Code, Section 201 provides that any government employee who accepts anything
of value in return for being influenced in the performance of his or her official duties faces fines,
15 years’ imprisonment, or both, and may be disqualified from further government employment.
The Standards of Conduct for employees of the executive branch, 5 Code of Federal Regulations
(CFR) 2635, prohibit employees from soliciting or accepting gifts from prohibited sources
(generally anyone who does business with the agency or may be affected by agency decisions) or
gifts given because of the employee’s official position.3 With some exceptions, according to the
law and the CFR:

            Gifts from a foreign government intended for a Department employee and worth
             more than $3504 should be refused, if the refusal can be accomplished without
             offense or damage to diplomatic relations. If the gift cannot be refused, it
             automatically becomes property of the U.S. Government, and the recipient must
             report the gift and transfer it to the Office of the Chief of Protocol within 60 days.
            Gifts from a foreign government intended for a Department employee and worth $350
             or less need not be reported or transferred and may be accepted, provided they are not
             offered in appreciation for performance of an official duty.
            Gifts from any other source intended for a Department employee and worth more
             than $20 must be refused, unless one of the numerous exceptions provided by the
             regulations applies.5
            Gifts from any other source intended for a Department employee and worth $20 or
             less need not be reported or transferred and may be accepted, provided they do not
             exceed $50 from a single source annually.
            Gifts of cash or investment securities from any source intended for a Department
             employee may not be accepted, regardless of the value or source.




3
  The Foreign Gifts and Decorations Act, however, allows for the acceptance of a gift of more than minimal value
“when it appears that to refuse the gift would likely cause offense or embarrassment or otherwise affect the foreign
relations of the United States.” In that case, the gift becomes the property of the United States. 5 U.S.C. Section
7342 [c] (1) (B) and 22 CFR Part 3.
4
  The amount was $350 at the time of this review. Effective January 1, 2014, the amount was raised to $375. See
http://www.gpo.gov/fdsys/pkg/FR-2014-04-02/html/2014-07369.htm.
5
  See 5 C.F.R. 2635.204.
                                             2
                                SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        The Foreign Affairs Manual’s (FAM) section on gifts, 3 FAM 4122, provides little
guidance on gifts to individuals but refers readers to 5 CFR 2635 and 22 CFR Part 3 (described
in part above). The Consular Management Handbook’s section on Procedural Integrity, 7
Foreign Affairs Handbook (FAH)-1 H-645, strongly recommends that missions develop written,
post-specific gift policies consistent with Department standards and regulations. Separate
regulations cover other types of gifts.6

        The Office of the Chief of Protocol has primary responsibility for administering the
Foreign Gifts and Decorations Act and is responsible for all gifts to the Department.7 The FAM
gives the assistant legal adviser for Ethics and Financial Disclosure responsibility for providing
“direct advice and guidance on ethics matters” to Department employees, including helping
employees comply with rules on gifts.8 To fulfill these responsibilities, the Office of the Legal
Adviser addresses gift-related laws in its annual ethics training and in presentations to
ambassadors before they take their assignments. It also issues an annual cable to missions every
December, reminding employees of gift laws and regulations and referring them to their
supervisor or the management officer if they have questions.9

        According to 3 FAM 4122.1, the embassy “administrative officer” is responsible for
accepting and transferring gifts that are the property of the U.S. Government to the Office of the
Chief of Protocol. The FAM does not designate any mission officer responsibility for overseeing
gift laws and regulations, and the FAM does not explicitly require that missions maintain a
registry of all gifts received. Because gift laws and regulations are complex, many missions
establish gift policies and gift registries, and some assign an employee responsibility for
accepting gifts or serving as the mission’s “gift officer.”

       Employees in certain positions are at high risk for receiving gift offers. Consular officers,
who accept or deny visa applications, influence whether foreign nationals see loved ones,
conduct business transactions, attend schools, or vacation in the United States. 10 Foreign
nationals who are referred by the ambassador or other mission officials may receive visas if they
also meet the requirements for the visa. Ambassadors, deputy chiefs of mission, and other
mission officials influence policy decisions. Contracting officers and grant officers select local
contractors and grantees. A representative in one regional bureau told OIG inspectors that gifts
offered to employees in that region are on the rise in both number and fair market value.

        OIG has found that mission staff is not always familiar with laws and regulations
pertaining to gifts to employees and that controls are inadequate to identify the inappropriate


6
  2 FAM 962 applies to gifts that that the Department receives to assist it in carrying out official functions, such as
monetary gifts to defray official duty travel expenses (invitational travel), gifts for public diplomacy programs, gifts
for representation, and gifts to support trade promotion events. The Federal Acquisition Regulations and the
Department of State Acquisition Regulations address gifts and other ethical standards related to contracting officers.
5 CFR 2635 Part C addresses gifts between supervisors and employees. Separate regulations apply to gifts of meals,
refreshments, entertainment, and attendance at widely attended gatherings.
7
   22 CFR Part 3, section 3.5(b).
8
   1 FAM 246.18.
9
   13 State 107257.
10
    OIG inspectors were told that consular officers are often approached with offers of gifts, even when no visa
application is pending. In some countries, private businesses assist foreign nationals in completing visa applications
and are aware of when individual consular officers are on vacation or en route to a new assignment.
                                              3
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

acceptance of gifts.11 For example, at Embassy Paris, the OIG inspectors found that the officer
assigned to track and dispose of gifts received by the Ambassador did not understand the
regulations governing gift acceptance. Similarly, at Embassy Bangkok, the officer receiving gifts
for the Ambassador did not know of the lower dollar-value limit of $20 for gifts received from
non-foreign government sources. As shown in Appendix B, 36 percent of missions with posted
gift guidance displayed inaccurate dollar limits for gifts. Ethics officials in the Office of the
Legal Adviser said they have difficulty getting employees to consider intangibles, such as
tickets, as gifts.

        Some missions rely almost entirely on employees to read, understand, and adhere to gift
regulations. Employees are still responsible for adherence to the rules, and the Office of the
Legal Adviser helps employees comply by providing helpful information on its Web site. During
recent inspections, OIG inspectors found that some missions do not maintain gift registries,
publish gift policies, or designate gift officers to track gifts and answer questions. If employees
receive gifts at these missions, they are expected to apply all the rules above, including
determining whether the gift was offered in appreciation for performance of an official duty,
whether it was from a prohibited source, whether the value exceeded appropriate fair market
value limits, and whether the gift exceeded applicable annual limits. The absence of any controls
and procedures makes it difficult to determine whether mission staff is aware of and adhering to
gift laws.

        The absence of controls, especially the lack of documentation and recordkeeping, hinders
transparency of the process and makes it difficult to oversee. Often, no documentation exists
related to gifts. Lack of documentation makes it difficult to assess responsibility or to determine
where the process failed or which part of the policy was violated.




11
     See Appendix A.
                                        4
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Recommendations
Every Mission Should Maintain a Gift Registry

        Maintaining gift registries is a recommended practice, but it is not required. Some
missions lack registries to record gifts to employees, while others lack gift acceptance records of
any kind (such as those cataloguing gifts to the Department or the U.S. Government). OIG
inspectors have recommended that individual missions establish gift registries to improve
controls.12 A gift registry would improve transparency, make it easier to determine whether an
accepted gift exceeded fair market value thresholds, highlight current requirements, allow for
disciplinary action if employees failed to report gifts, and enhance OIG’s ability to oversee
adherence to gift regulations and policies.13 The registries should include all gifts valued at $20
or more from any source, including those that the law permits the recipient to accept, except
those from relatives.

Recommendation 1: The Office of the Legal Adviser should publish a provision in the Foreign
Affairs Manual that requires missions to maintain a registry of gifts valued at more than $20 to
embassy employees or to the U.S. Government, including gifts to individuals on temporary duty
assignments at post. (Action: L)

Every Mission Should Designate a Gift Officer

        Under the current FAM provisions, no mission officer is currently responsible for
overseeing gift controls. Although many missions have designated a “gift officer,” neither the
FAM nor the Office of the Legal Adviser’s annual cable addresses or defines a gift officer or the
officer’s responsibilities. OIG has found confusion about the gift officer’s existence and
responsibilities.14

         Designating an officer to be responsible for maintaining gift controls would improve
accountability and provide a single point of contact for questions. A gift officer would do the
following: (1) maintain the gift registry; (2) ensure that the embassy has a gift policy; (3) accept
gifts for the U.S. Government and handle them according to established law, regulations, and
procedures; (4) provide simple advice to embassy employees and refer questions to the Office of
the Legal Adviser; and (5) promote embassy efforts to ensure that embassy employees observe
gift rules and regulations. The officer could designate others, such as protocol officers, to track
gifts received at the ambassador’s residence during representational events. OIG recognizes that


12
   Inspection of Embassy Abuja and Consulate General Lagos, Nigeria, Report No. IPS-I-13-16A, February 2013.
Inspection of Embassy Bucharest, Romania, Report No. ISP-I-12-45A, August 2012; Inspection of Embassy Lusaka,
Zambia, Report No. ISP-I-12-41A, August 2012; Inspection of Embassy Bangkok and CG Chiang Mai, Thailand,
Report No. ISP-I-11-03, November 2010.
13
   Inspector General Act of 1978, § 4, 5 U.S.C. Appendix 4 grants the inspectors general the duty and responsibility
to recommend policies for preventing and detecting fraud and abuse in their establishments.
14
   Inspection of Embassy Abuja and Consulate General Lagos, Nigeria, Report No. IPS-I-13-16A, February 2013;
Inspection of Embassy Lusaka, Zambia, Report No. ISP-I-12-41A, August 2012; Inspection of Embassy Nairobi,
Kenya, Report No. ISP-I-12-38A, August 2012; Inspection of Embassy Paris, France, and Constituent Posts, Report
No. ISP-I-12-25A, May 2012; Inspection of Embassy Bangkok and CG Chiang Mai, Thailand, Report No. ISP-I-11-
03, November 2010.
                                             5
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

no officer will be able to prevent unethical employees from inappropriately accepting gifts.
Embassy employees are still responsible for observing the law. However, greater controls and a
single point of contact will improve the control environment for enforcement. The management
officer is the logical choice to serve as the gift officer, given the management officer’s current
responsibilities related to gifts provided to the Department. Ambassadors and deputy chiefs of
mission, however, remain responsible for providing leadership that encourages full compliance
with gift laws and regulations.

        Because embassies and other missions vary greatly in size, host country environment, and
other characteristics, missions may have good reasons to assign gift officer responsibilities to a
different embassy official. Missions should be allowed to designate another employee as gift
officer, as long as the identity of the gift officer is clear and widely known throughout the
embassy and the duties of the gift officer are compatible with the employee’s other
responsibilities. The gift officer should not be locally employed staff. Publishing the name and
position of the gift officer in the mission’s Designated Officers for Specific Post Responsibilities
document called for in 2 FAM Exhibit 113.3 would serve this purpose.15

Recommendation 2: The Office of the Legal Adviser should publish a provision in the Foreign
Affairs Manual that requires each mission to designate a gift officer. The provision should also
define that officer’s responsibilities, including a proviso that the mission may designate another
officer with the concurrence of the appropriate regional bureau. (Action: L)

Recommendation 3: The Office of the Legal Adviser, in coordination with the Office of
Management Policy, Rightsizing, and Innovation, should add the gift officer designation to 2
Foreign Affairs Manual Exhibit 113.3. (Action: L, in coordination with M/PRI)

        The FAM designates the post “administrative officer,” a title no longer in use, as the
position responsible for accepting gifts to the U.S. Government.16 The obsolete title has led some
to believe that the term does not identify one particular officer, when in fact it identifies the
individual who is the “management counselor or officer.”17 The Bureau of Human Resources is
responsible for that section of the FAM.

        Informal Recommendation 1: The Bureau of Human Resources should replace the “post
        administrative officer” reference in 3 Foreign Affairs Manual 4122.1c. section with
        “management counselor or officer.”

Mission Gift Policies

       To provide a local reminder of the rules that apply to the acceptance of gifts, many
missions develop local gift policies. Appendix B summarizes data on missions with gift policies
posted on their Web sites, and Appendix C contains a sample gift policy. A gift policy signed by
an ambassador shows that mission’s leader’s support. Gift policies are often added to welcome
packets for new employees and posted to the mission’s Web site. In recent inspections, OIG has


15
   The Office of Management Policy, Rightsizing, and Innovation last updated 2 FAM 100.
16
   3 FAM 4122.1c.
17
   See, for example, 15 FAM 121.
                                            6
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

recommended that missions develop gift policies.18 In the OIG team’s effort to collect mission
gift policies from embassy intranet sites, inspectors found that some of these policies contain
outdated monetary limits.

Recommendation 4: The Office of the Legal Adviser should publish in the Foreign Affairs
Manual a standard mission gift policy that provides up-to-date fair market value limits and other
requirements. (Action: L)

        Mission-based gift policies are not required, although the Consular Management
Handbook, 7 FAH-1, states, “The Department strongly recommends that posts develop [a]
written, post-specific gift policy.” Mission-based gift policies may discuss rules that apply to
more frequently encountered situations if needed because of local conditions. For example, it
may be unlawful to take gifts of antiquities (such as coins) out of a specific country. This
provision does not suggest that those gift policies be limited to consular employees but implies
that such policies would apply to all employees. Placing this requirement in a FAH section
appended to Title 7 of the FAM effectively hides it from most Department employees and
eliminates the notice that it could provide to the rest of the Department. This language in the
Consular Management Handbook has caused confusion; it suggested to at least one consular
section chief that his section should adopt a gift policy separate from any that the mission might
have. The Department’s guidance on Moving Existing Material in the FAM says that material
may move when it “relates more closely to subject matter in another volume.”19

        Informal Recommendation 2: The Office of the Legal Adviser should publish in the
        Foreign Affairs Manual, a provision that authorizes embassies to adopt local gift policies
        that are consistent with the standard mission gift policy published in the Foreign Affairs
        Manual.

Department Should Include Gift Controls in Annual Statements of Assurance

        Ambassadors are not required to review compliance with gift-related regulations before
signing an annual statement of assurance on management controls. In the statement mandated in
2 FAM 024(d), ambassadors provide assurances to the Secretary concerning the effectiveness of
internal controls in their operations. Those internal controls should provide reasonable assurance
that the objectives of the Department are being met—namely, compliance with applicable laws
and regulations.20 Ambassadors could show due diligence in certifying that their missions have
in place gift controls, such as an up-to-date gift registry, a designated gift officer, and a current
gift policy, including procedures for valuing, reporting, and disposing of gifts. Omission of such
a statement may suggest to some Department employees that observance of the rules on gifts is
not very important.



18
   Inspections of Embassy Abuja and Consulate General Lagos, Nigeria, Report No. ISP-I-13-16A, February 2013;
Inspection of Embassy Bucharest, Romania, Report No. ISP-I-12-45A, August 2012; Inspection of Embassy
Nairobi, Kenya, Report No. ISP-I-12-38A, August 2012; Inspection of Embassy Paris, France, and Constituent
Posts, Report No. ISP-I-12-25A, May 2012; Inspection of Embassy Bangkok and Consulate General Chiang Mai,
Thailand, Report No. ISP-I-11-03, November 2010.
19
   2 FAH-1 117, Moving Existing Material.
20
   GAO Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, 4-5, November 1999.
                                           7
                              SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 5: The Bureau of the Comptroller and Global Financial Services should
amend the annual assurance statements from chiefs of mission to include a section about
compliance with Department of State requirements for gifts. (Action: CGFS)




                                      8
                         SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Appendix A: OIG Recommendations Related to Gifts
Inspection of Embassy Abuja and Consulate General Lagos, Nigeria (IPS-I-13-16A,
February 2013)
OIG found the embassy did not have a standard gift policy or designated gift officer. Department
regulation 3 FAM 4122.1 designates the gift officer as what is now the embassy management
officer. The absence of a designated gift officer and clear standard operating procedure for gift
disposition places gift recipients at risk of ethics violations. OIG recommended that the mission
designate a gift officer and publish and implement a gift policy.

Inspection of Embassy Bucharest, Romania (ISP-I-12-45A, August 2012)
OIG found the embassy did not have an established process for registering gifts. The gift registry
was out of date and incomplete; it omitted such vital information as gift valuation or dates
received. Without such information, it is impossible to determine whether and when a gift must
be reported. OIG issued an informal recommendation that the mission establish policies and
procedures for mission personnel to report all gifts promptly and for the management officer to
record reported gifts.

Inspection of Embassy Lusaka, Zambia (ISP-I-12-41A, August 2012)
OIG found the embassy did not have a designated gift officer or standard procedure for the
disposition of gifts, as 3 FAM 4122.1 requires. The lack of a designated gift officer and standard
procedure for gift disposition places recipients at risk of ethics violations. OIG recommended
that the mission designate a gift officer and include that information in a published gift policy.

Inspection of Embassy Nairobi, Kenya (ISP-I-12-38A, August 2012)
OIG found the mission lacked a published gift policy and had no designated gift officer (3 FAM
4122.1 designates the gift officer as what is now the embassy management officer). The lack of a
designated gift officer and standard procedure for gift disposition places recipients at risk of
ethics violations. OIG recommended that the embassy designate a gift officer and publish a gift
policy.

Inspection of Embassy Paris, France, and Constituent Posts (ISP-I-12-25A, May 2012)
OIG found the mission suffered from long-term inattention to management controls in many
areas, including keeping adequate records on the acceptance of gifts. The embassy authorized
invitational travel outside the country because of inappropriate delegation of responsibilities for
travel approval. OIG also found that the mission staff assigned gift officer responsibilities did not
understand the governing regulations and were not prepared for those responsibilities; some
missions had no records of accepted gifts. OIG recommended that the embassy enforce existing
policies for invitational travel, reassign the gift officer responsibilities to a general services
employee, and register accepted gifts in accordance with Department rules.

Inspection of Embassy Nassau, The Bahamas (ISP-I-12-08A, January 2012)
OIG found the embassy was not properly reporting in-kind contributions from local sources for
the July 4 event. Department regulation 2 FAM 964 requires the post to issue an annual report to
the Gifts Fund Coordinator of the Regional Management Bureau that includes the amount paid
by the source. OIG recommended that the mission report all gifts, especially gifts in-kind for the
July 4 event.

                                         9
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Inspection of Embassy Copenhagen, Denmark (ISP-I-11-19A, March 2011)
OIG found the embassy lacked a standard gift policy for employees and a process for valuing
and reporting gifts to employees. This left employees vulnerable to violating several regulations
regarding gifts. OIG recommended that the mission issue a gift policy for the proper reporting,
valuation, and disposition of gifts.

A compliance followup review in March 2012 found the embassy issued a gift policy outlining
the appropriate rules for employees to follow. OIG closed the issue. (ISP-C-12-20, March 2012)

Inspection of Embassy Athens, Greece (ISP-I-11-15A, February 2011)
OIG found that, In light of concerns about a predecessor’s acceptance of gifts, the current
Ambassador had continued a strengthened gift policy. Adopted in August 2010, this policy
shifted responsibility for cataloguing gifts from an LE staff member in the protocol office to an
American officer, who records and values incoming gifts from a foreign government or
nongovernmental source and flags any gifts that appear to be inappropriate. No recommendation
was issued.

Inspection of Embassy Bangkok and Consulate General Chiang Mai, Thailand (ISP-I-11-
03, November 2010)
OIG found the officer designated to receive gifts provided to the Ambassador was unaware of
certain regulations governing acceptance. Specifically, the officer did not know of the lower
dollar threshold applying to gifts from non-host government sources. Additionally, that officer
had no knowledge of gifts accepted at the chief of mission residence. The inspection also found
that a member of the Ambassador’s family attended two separate, invitation-only training
courses run by the Government of Thailand, without appearing to hold qualifications meeting
event criteria. OIG recommended that the mission issue a gift policy and seek a formal opinion
from the Office of the Legal Adviser as to the applicable Federal regulations pertaining to the
training opportunities afforded to members of the Ambassador’s family.

A compliance followup review in 2012 found that the embassy issued a gift policy in November
2010 and has a gift officer who handles questions about accepting gifts and attending events.
OIG closed the issue. (ISP-C-12-33A, June 2012)

Inspection of Embassy London, England (ISP-I-09-37A, July 2009)
OIG found that organizations cosponsoring events at the embassy were providing funds that
were accepted as unconditional gifts. This practice may have been in violation of FAM
requirements about gifts, creating conflicts of interest or the appearance of impropriety. OIG
recommended that the embassy create a registry to record each gift accepted by the embassy.

Inspection of Embassy Luanda, Angola (ISP-I-09-19A, March 2009)
OIG found that embassy staff used a daycare center run by a state-owned oil company at no cost.
There were questions whether the embassy had business with this company, a possible conflict
of interest. OIG recommended that the mission, in coordination with the Office of the Legal
Adviser and the Under Secretary for Management, determine the appropriateness of using this
service from the Angolan state oil company.




                                       10
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Appendix B: Missions with Gift Guidance Posted on Their
Internal Web Sites
        OIG searched internal intranet sites of 14621 embassies and found 107 of them had some
gift guidance (gift policies and/or holiday gift reminders) posted.

         Thirty-six percent of the missions with gift guidance posted had out-of-date dollar limits
in their guidance.


                           AF          EAP          EUR          NEA          SCA         WHA           Total

Total missions              18           15           31           13           7            23          107
with gift
guidance posted
Missions with               12           11           17           11           5            12          68
up-to-date                                                                                             (64%)
information
posted
Missions with           6        4         14         2          2         11          39
out-of-date                                                                          (36%)
information
posted
Note: AF, Bureau of African Affairs; EAP, Bureau of East Asian and Pacific Affairs; EUR,
Bureau of European Affairs; NEA, Bureau of Near Eastern Affairs; SCA, Bureau of South and
Central Asian Affairs; WHA, Bureau of Western Hemisphere Affairs.




21
  OIG attempted to access the internal intranet Web sites of all 166 embassies worldwide but was only able to
access 146 of them.
                                             11
                                 SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED


   Appendix C: Embassy Gift Policy Example
                                               U.S. Mission Germany
                                                  Embassy Berlin
                                                Management Office

                        ETHICS AND CONFLICTS OF INTEREST
                 GENERAL GUIDELINES AND FREQUENT SITUATIONS
Complex laws and regulations govern this area; general principles may be subject to exceptions.
This summary is not exhaustive, but is designed to provide general guidance.
Advice should be sought from the Embassy Berlin Management Officer, who will contact State Department ethics
officials if necessary. Acceptance of any gifts above minimum value (see exceptions 2 and 5 in table below) must be
approved by the Embassy Berlin Management Officer or the Management Minister-Counselor.
General Principles:
 Employee may not use his/her official title or prestige of the USG for personal gain—hence strict limits on
     accepting gifts.
 Gifts should never be solicited except under tightly controlled circumstances (2 FAM 962).
 Employee may not use his/her official title or prestige of the USG to enhance the prestige or business of another
     organization or imply official sponsorship except under certain circumstances (outlined below).
Further Reading:
 Standards of Ethical Conduct, intranet: http://arpsdir.a.state.gov/miscdoc/conduct/pdf; internet: www.usoge.gov.
 Employee Responsibilities Abroad, 3 FAM 4120
 Solicitation and/or Acceptance of Gifts by the Department of State, 2 FAM 960

                                                          GIFTS
                IF                         THEN                                     UNLESS
Gift offered in appreciation for       Gift cannot be     Recipient wants to risk going to jail!
performance of official duty           accepted (must
                                       be refused or
                                       returned or paid
                                       for)
Gift offered because of recipient’s    Gift cannot be     1.   Motivated by personal or family relationship, or
official status or position,           accepted (must     2.   An item from private individual/organization overseas,
possibly motivated by self-            be refused or           worth more than $20 (limit: $50/year from single source),
interest (e.g., to gain influence or   returned or paid        or otherwise not able to be accepted, if refusal/return/
business advantage)                    for)                    payment would cause offense or embarrassment or
                                                               otherwise adversely affect the foreign relations of the US,
                                                               may be accepted on behalf of the Department of State and
                                                               received by Embassy Management Officer (see 3 FAM
                                                               4122.1), or
                                                          3.   A gift of meals/refreshments/ entertainment up to value of
                                                               local USG per diem, from private individual/organization
                                                               overseas, gathering includes non-U.S. citizens, attendance
                                                               and is part of official duties, or
                                                          4.   A gift of meals/refreshments/ entertainment from private
                                                               individual/organization overseas, Ambassador may accept
                                                               on behalf of State Department for representational use if
                                                               not in excess of $500/year per donor and there is no
                                                               conflict of interest with the donor, or
                                                          5.   An item or meals and entertainment from foreign
                                                               government, worth minimal value (defined by GSA as
                                                               $350 or less), offered as token of respect, absent conflict
                                                   12
                                       SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

                                                             of interest, or
                                                        6.   An item worth more than $350 from foreign government,
                                                             refusal would cause offense or otherwise adversely affect
                                                             U.S foreign relations, may be accepted on behalf of USG
                                                             and sent to State Department Office of Protocol.

                                                        Acceptance of gifts (other than those of minimal value) should
                                                        generally be reported on the forms for Mission Germany:
                                                        Report of Gift – Berlin, Düsseldorf, Hamburg, Leipzig
                                                        Report of Gift – Frankfurt
                                                        Report of Gift –- Munich


Gift donated for a trade             Embassy Berlin     Acceptance of gifts (other than those of minimal value) should
promotion or Fourth of July          Management         generally be reported on the forms for Mission Germany:
event that meets the criteria set    Minister-          Report of Gift – Berlin, Düsseldorf, Hamburg, Leipzig
forth in 2 FAM 962.1-5 b(1) or 2     Counselor or       Report of Gift – Frankfurt
FAM 962.1-6, as appropriate;         MGT Officers       Report of Gift –- Munich
                                     may accept gifts
                                     to be used for
                                     representational
                                     purposes in
                                     Germany.
Gift is for public diplomacy         Embassy Berlin
purposes abroad subject to the       Minister           Acceptance of gifts (other than those of minimal value) should
conditions set forth in 2 FAM        Counselor for      generally be reported on the Mission Germany:
962.1-7 - Gifts for Public           Public Affairs     Report of Gift – Berlin, Düsseldorf, Hamburg, Leipzig
Diplomacy Programs Abroad            or designated      Report of Gift – Frankfurt
                                     subordinates at    Report of Gift – Munich
                                     post authorized
                                     to solicit and
                                     accept these
                                     gifts.

                                          GIFT – Invitational Travel
                IF                      THEN                                       UNLESS
Proposed offer is to defray travel   Request must       1.   The offer is unsolicited, AND
expenses (including travel,          be denied          2.   The travel is for official purposes related to the employee's
subsistence, and related                                     duties, AND
expenses).                                              3.   The travel, if undertaken, would represent a priority use of
                                                             the employee's time, AND
                                                        4.   The employee would travel for the minimum time
                                                             necessary to carry out USG business, AND
                                                        5.   The donor has no business pending before the Department
                                                             of State, AND
                                                        6.   Acceptance of the travel does not create a real or apparent
                                                             conflict of interest and a reasonable person would not
                                                             believe that the traveling official or the Department would
                                                             lose objectivity as a result of accepting the travel donation.

                                                        For approval to accept invitational travel, please submit the
                                                        forms for Mission Germany:
                                                        Request for Approval of Invitational Travel – Berlin,
                                                        Düsseldorf, Hamburg and Leipzig
                                                        Request for Approval of Invitational Travel – Frankfurt
                                                        Request for Approval of Invitational Travel – Munich

                                                 13
                                     SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED


                                                        Reference: 2 FAM 962.1-8 Gifts of Invitational Travel



                                             FUNDRAISING ABROAD
                 IF                         THEN                                  UNLESS
Proposed fundraising is on behalf        Request must   No exceptions
of for-profit entity or is not           be denied
intended to meet official
purposes.
Proposed fundraising is by               Request must   1.   Such fundraising in an official capacity would clearly
employee, spouse, or family              be denied           advance U.S. foreign policy interests, AND
member on behalf of non-profit                          2.   There is very little or no appearance of preferential
local entity (e.g., local charity) (2                        treatment or use of public office for private gain, AND
FAM 962.1-11 and 3 FAM                                  3.   Chief of Mission permission is given, AND
4123.4)                                                 4.   Contributions are not received directly by post employees
                                                             or Department, AND
                                                        5.   Solicitations by Chief of Mission or spouse are approved
                                                             in advance by L/Ethics and by Bureau of European and
                                                             Eurasian Affairs (EUR/EX) AND
                                                        6.   Solicitations follow guidelines set forth in 2 FAM 962(g)
                                                             and (h). 2 FAM 962.1-11; 3 FAM 4123.4

                                         POSITIONS ON OUTSIDE BOARDS
                                             (OFFICIAL CAPACITY)
                 IF                        THEN                   UNLESS
Proposed position is with a for-         Request must   No exceptions
profit entity                            be denied
Proposed position is with a non-         Request must   1.  Service as an officer, director, or trustee of outside board
profit entity to serve as an             be denied          for American Schools, OR
officer, director, or trustee. (See 3                   2. Organization promotes USG foreign policy objectives,
FAM 4123.4).                                                AND
                                                        3. Appearance of preferential treatment can be avoided, AND
                                                        4. Approval of L/Ethics and COM is obtained
                                                        (Service as an officer, director, or trustee of outside board is
                                                        generally not permitted except for American Schools)
                                                        3 FAM 4123.4

                                        EVENT PATRONAGE, SPONSORSHIP;
                                         EVENTS AT OFFICIAL RESIDENCE
                 IF                        THEN                    UNLESS
Proposed event is for a for-profit       Request must   Event is wholly sponsored by FCS as part of trade promotion
firm or other entity                     be denied      program, not “co-sponsored” by participating for-profit firm or
                                                        firms
Proposed event is for a non-             Request must   1. Organization promotes USG foreign policy objectives,
profit entity meeting criteria of        be denied          AND
2 FAM 962.1-11 and 3 FAM                                2. Appearance of preferential treatment can be avoided, AND
4123.4                                                  3. Meets criteria of 2 FAM, AND
                                                        4. Event organized and accounted for as normal
                                                            representation function.




                                                    14
                                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Office of the Legal Adviser should publish a provision in the
Foreign Affairs Manual that requires missions to maintain a registry of gifts valued at more than
$20 to embassy employees or to the U.S. Government, including gifts to individuals on
temporary duty assignments at post. (Action: L)

Recommendation 2: The Office of the Legal Adviser should publish a provision in the
Foreign Affairs Manual that requires each mission to designate a gift officer. The provision
should also define that officer’s responsibilities, including a proviso that the mission may
designate another officer with the concurrence of the appropriate regional bureau. (Action: L)

Recommendation 3: The Office of the Legal Adviser, in coordination with the Office of
Management Policy, Rightsizing, and Innovation, should add the gift officer designation to 2
Foreign Affairs Manual Exhibit 113.3. (Action: L, in coordination with M/PRI)

Recommendation 4: The Office of the Legal Adviser should publish in the Foreign Affairs
Manual a standard mission gift policy that provides up-to-date fair market value limits and other
requirements. (Action: L)

Recommendation 5: The Bureau of the Comptroller and Global Financial Services should
amend the annual assurance statements from chiefs of mission to include a section about
compliance with Department of State requirements for gifts. (Action: CGFS)




                                       15
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Human Resources should replace the “post
administrative officer” reference in 3 Foreign Affairs Manual 4122.1c. section with
“management counselor or officer.”

Informal Recommendation 2: The Office of the Legal Adviser should publish in the Foreign
Affairs Manual, a provision that authorizes embassies to adopt local gift policies that are
consistent with the standard mission gift policy published in the Foreign Affairs Manual.




                                      16
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CFR              Code of Federal Regulations

Department       U.S. Department of State

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

OIG              Office of the Inspector General




                            17
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
